OFFICE OF INSPECTOR GENERAL’S
PROPOSAL TO IMPROVE BUSINESS
       EFFICIENCY AT THE
 RAILROAD RETIREMENT BOARD

      September 21, 2011




       OFFICE OF INSPECTOR GENERAL
       RAILROAD RETIREMENT BOARD
                                              TABLE OF CONTENTS


INTRODUCTION

OBSERVATIONS AND PROPOSALS

 Program Costs and Budgetary Uncertainty ..................................................................................... 1
 Productivity Relative to Program Funding and the Railroad Customer Base ............................. 2
    Table 1 - Railroad Retirement Cost Per Customer ..................................................................... 2
    Table 2 - Railroad Retirement Cost Per Payment ...................................................................... 3
 National Railroad Retirement Investment Trust Oversight ............................................................ 4
    Table 3 - NRRIT Net Assets And Expenses ................................................................................ 4
 Financial Accounting System Compliance ....................................................................................... 6
 Business Systems Modernization...................................................................................................... 7
 Information Technology ....................................................................................................................... 8
 Human Capital Management.............................................................................................................. 9
 Railroad Medicare .............................................................................................................................. 10
 Energy Conservation and Space Utilization .................................................................................. 11


CONCLUSION

APPENDICES

 Appendix 1 - Special Reports Issued By the OIG ......................................................................... 13
 Appendix 2 - NRRIT Tax Rate, Benefits Ratio and Fund Balance Projections ........................ 14
                                                  INTRODUCTION
The Office of Inspector General’s (OIG) mission is to improve the efficiency and economy of
the Railroad Retirement Board’s (RRB) programs and operations. To achieve its mission, the
OIG focuses its audit and investigative efforts on protecting the integrity of the RRB’s trust
funds and improving the delivery of benefits to the railroad community.

During fiscal year (FY) 2011, the OIG conducted a special review to identify the RRB’s current
weaknesses and the ways in which they could be addressed. RRB senior management and
key operating staff were interviewed to obtain their feedback and identify concerns with regard
to agency-wide efficiency. Proposals for future improvement were generated based on these
discussions and through additional research and analysis. The OIG has previously performed
special reviews to address the concerns of management and Congress and to respond to
contemporary issues impacting the agency. A listing of the reports that were issued in
response to these reviews is included in Appendix 1.

In fulfilling its oversight responsibility, the Government Accountability Office (GAO) identifies
and monitors those government agencies and programs which are at high risk for fraud, waste,
abuse, and mismanagement. The OIG considered the high risk areas reported by the GAO
during its special review and identified several areas of concern for the RRB which parallel
those previously identified by the GAO.

The current economic decline and high rate of unemployment has heightened the public’s
awareness of the cost of government services and the need for greater accountability in all
areas of public spending. Budgetary timing and appropriation uncertainty, financial
transparency and close public scrutiny drive the continuing need for Federal agencies to
achieve greater results with fewer resources.1 As such, the RRB must utilize the most
advantageous methods of productivity while fully leveraging its available budgetary and
staffing resources.

                                 OBSERVATIONS AND PROPOSALS
Program Costs and Budgetary Uncertainty

RRB management must increasingly respond to mandated requests for program and
administrative information resulting from new federal legislation. Although, the volume of these
requests for agency information has continued to increase, the funding and resources needed
to respond has not increased equivalently. The cost of producing this information has also
become increasingly more expensive due to its complexity, the need for technology to obtain
the information, and the advanced skill level and higher pay scales required for those involved
in preparing the response.




1
 As defined by OMB Circular No. A-11, “Preparation, Submission and Execution of the Budget,” Section 20.3: “Appropriation
means a provision of law (not necessarily in an appropriations act) authorizing the expenditure of funds for a given purpose.
Usually, but not always, an appropriation provides budget authority.”
                                                              1
Agency management must also continue to adapt to a budgetary climate that is defined by
timing uncertainly and looming decreases in budgetary appropriations. As a result, the RRB’s
staffing needs cannot be effectively coordinated with the timing and availability of the agency’s
budget. The growing complexity of the RRB’s work environment has also contributed to the
overall increase in program costs.

Demographic trends impacting the RRB also require special management consideration and a
reevaluation of how the agency will conduct its business in the future. As discussed later in
this report, a significant number of RRB employees are eligible for retirement while its future
customer base is expected to continue to decline.

To meet these challenges and respond to the changing federal work environment, RRB
management must ensure that a proactive strategy is in place which utilizes state-of-the-art
technologies and advanced productivity measures and techniques.

Productivity Relative to Program Funding and the Railroad Customer Base

An analysis of RRB published data indicates that there has been a continuing increase in
appropriation funding despite an overall decline in the customer base served. 2 As illustrated in
Table 1 below, while the collective railroad annuitant and employment customer base has
declined by 15%, the allocated appropriation cost per customer has risen by an estimated
35%.

                              Table 1 - Railroad Retirement Cost Per Customer


                                              Railroad          Customer                      Appropriation
                 Year     Annuitants       Employment               Base      Appropriation   Per Customer
                 2001       660,112            238,000            898,112       $95,000,000         $105.78
                 2002       641,063            229,000            870,063       $97,627,500         $112.21
                 2003       626,319            225,000            851,319       $99,350,000         $116.70
                 2004       610,020            227,000            837,020      $100,702,330         $120.31
                 2005       595,484            232,000            827,484      $102,543,040         $123.92
                 2006       582,995            236,000            818,995      $101,517,570         $123.95
                 2007       571,271            237,000            808,271      $103,693,878         $128.29
                 2008       562,347            235,000            797,347      $101,882,466         $127.78
                 2009       554,124            223,000            777,124      $105,463,000         $135.71
                 2010       549,800            221,000            770,800      $109,073,000         $141.51
                 2011       545,300            217,000            762,300      $109,073,000         $143.08

             Change          -114,812            -21,000           -135,812     $14,073,000         $37.30
                 %             -17.39              -8.82             -15.12           14.81          35.26




2
    RRB’s “Justification of Budget Estimates” for FY 2010 and FY 2012.
                                                               2
Over this ten year period, RRB locality-adjusted compensation and benefits increased by
approximately 37.2%.3 However, the RRB’s full time equivalent staffing declined by more than
22% for the same period. As the level of future increases in agency appropriations remains
questionable, the trend toward budgetary increases experienced in prior years is not expected
to be sustainable over the long-term.

As illustrated in Table 2, the RRB’s appropriation cost per payment processed shows a
significant increase over time while overall efficiency in terms of the number of annuitants
served and benefit payment volume has declined. While the total number of retirement
payments and unemployment and sickness payments has declined by more than 20%, the
appropriation cost per payment has risen by an estimated 44%.

                            Table 2 - Railroad Retirement Cost Per Payment

                    Retirement         UI            SI                                          Appropriation
           Year     Payments        Payments      Payments         Total      Appropriation      Per Payment

            2001      8,872,847        96,603       165,706      9,135,156      $95,000,000              $10.40
            2002      8,200,488       106,289       167,643      8,474,420      $97,627,500              $11.52
            2003      7,960,902        93,422       159,088      8,213,412      $99,350,000              $12.10
            2004      7,766,557        74,790       150,033      7,991,380     $100,702,330              $12.60
            2005      7,592,204        60,057       138,610      7,790,871     $102,543,040              $13.16
            2006      7,426,518        53,781       133,519      7,613,818     $101,517,570              $13.33
            2007      7,349,904        58,385       127,372      7,535,661     $103,693,878              $13.76
            2008      7,191,744        65,388       120,498      7,377,630     $101,882,466              $13.81
            2009      7,104,066       198,230       118,770      7,421,066     $105,463,000              $14.21
            2010      7,055,426       190,152       119,426      7,365,004     $109,073,000              $14.81
            2011      7,000,000       151,000       112,000      7,263,000     $109,073,000              $15.02

         Change      -1,872,847         54,397       -53,706    -1,872,156        14,073,000               $4.62
             %           -21.11          56.31        -32.41        -20.49             14.81               44.42

Based on the “moderate” assumption reported in the RRB’s latest actuarial report, over the
next 25 years the number of railroad annuitants is expected to decline from the present level of
approximately 545,000 to less than 400,000 annuitants. Over this same period, covered
employment levels are expected to decline from 231,000 current railroad employees to
approximately 150,000. Based on this assumption, the projected future decline in the RRB’s
customer base from current levels is expected to be more than 29%.

As the agency’s customer base continues to decline, RRB management must identify the
causes of inefficiency and develop a means of increasing the agency’s overall productivity
relative to its program funding.




3
  The RRB’s personnel compensation and benefits represent approximately 80% of its total budget authority. The estimated
ten year RRB personnel compensation increase of 37.2% was computed based on the Office of Personnel Management’s
General Schedule increases for the Chicago area as more than 72% of the RRB’s employees reside in this locality. The
OPM’s increases are based on analysis of comparable market data developed by the Bureau of Labor Statistics. Personnel
benefits are expected to increase proportionately.
                                                            3
National Railroad Retirement Investment Trust Oversight

During FY 2008, the OIG released a statement of concern highlighting the lack of performance
audit requirements for the National Railroad Retirement Investment Trust (NRRIT) fund which
finances the Railroad Retirement system’s benefit payment obligations. Since the statement’s
release, there has been no corrective action directed toward alleviating the NRRIT oversight
concerns while the NRRIT’s long-term trust fund solvency has become increasingly
questionable.

Since its inception, the NRRIT’s administrative expenses have steadily risen and increased the
overall RRB cost structure by more than 70%. This increase can be partially explained by the
number of fund management staff that would be needed to manage increasingly complex
risk-based investment strategies and transactions. However, minimal information is released
publically to justify the recurrent increases in administrative expense. Despite the NRRIT’s
lack of fund management transparency and the extraordinary value of the fund’s assets, there
has been a consistently passive approach to fund oversight.

The data in Table 3, obtained from the NRRIT’s annual management reports for FY 2002
through 2010, illustrates the significant growth in administrative expense despite a recent trend
toward decline in the value of net assets managed.

                    Table 3 - NRRIT Net Assets and Expenses ($ In Thousands)

                                                                                    EXPENSES AS
                     YEAR           NET ASSETS               EXPENSES               % OF ASSETS
                     2002            $1,420,298                $2,147                  .1512%
                     2003           $23,015,926                $4,558                  .0198%
                     2004           $25,032,869                $9,982                  .0399%
                     2005           $27,666,492               $23,856                  .0862%
                     2006           $29,372,752               $43,403                  .1478%
                     2007           $32,664,008               $75,375                  .2308%
                     2008           $25,335,734               $71,983                  .2841%
                     2009           $23,332,743               $63,849                  .2736%
                     2010           $23,809,429               $77,165                  .3241%

While the NRRIT achieved initial success with market based investments, the fund’s
management strategy has placed the Railroad Retirement system in a precarious position for
the long-term. As disclosed in the NRRIT’s FY 2002 annual report, the reserves for the
Railroad Retirement system, in terms of the Account Benefits Ratio (ABR), were 6.95 for
FY 2001.4 The FY 2001 ABR was quoted in the report as being, “…the highest level of reserve
in the history of the Railroad Retirement system.” The RRB’s 25 year actuarial projection of
the Railroad Retirement system’s solvency indicates that this level of reserve will not be
repeated again.



4
 Per Section 3241 of the Internal Revenue Code, “The term “account benefits ratio” means, with respect to any fiscal year, the
amount determined by the Railroad Retirement Board by dividing the fair market value of the assets in the Railroad Retirement
Account and of the National Railroad Retirement Investment Trust (and for years before 2002, the Social Security Equivalent
Benefits Account) as of the close of such fiscal year by the total benefits and administrative expenses paid from the Railroad
Retirement Account and the National Railroad Retirement Investment Trust during such fiscal year.”
                                                              4
To maintain NRRIT trust fund solvency, future Tier 2 tax rates to be paid by railroad employers
will require an aggressive increase from the current rate of 16% to a reported high of 27%, a
level that is seemingly unsustainable in the competitive railroad industry. The ABR is projected
to decline under the three primary employment assumptions and would be negative in 2035
under the pessimistic employment assumption. The combined NRRIT and Railroad
Retirement Account balance would decline similarly and incur a deficit in 2035 under this
assumption. Based on current economic indicators, a pessimistic employment assumption
must be considered more likely than an optimistic assumption. The ABR, Tier 2 tax rates and
the NRRIT trust fund balance projections under the three primary employment assumptions
are presented graphically in Appendix 2.5


                  Railroad Retirement Account Balance (In Millions)
                         Pessimistic Employment Assumption

      $30,000
      $25,000
      $20,000
       $15,000
       $10,000
        $5,000
             $0
        -$5,000
                      2011
                                  2015
                                                   2020
                                                                    2025
                                                                                    2030
                                                                                                    2035



                         2011             2015             2020            2025            2030            2035
        RRA Balance     $25,433          $23,195          $17,143          $8,760          $2,734      -$2,872



A lack of NRRIT investment fund management accountability, transparency and stringent
financial oversight can be precursors to fraud, waste and abuse. Within the Federal agency
spectrum there is no comparable example where Federal program assets are completely
outside the jurisdiction of a Federal agency’s appointed Inspector General. However, the
NRRIT fund which supports the Railroad Retirement program remains outside the purview of
those appointed to protect the interests of the program’s beneficiaries and the tax-paying
public.

To ensure the integrity, economy and long-term viability of the NRRIT, RRB management must
establish performance audit requirements that will strengthen administrative and financial
oversight and ensure trust fund transparency.




5
 “Railroad Retirement System, Annual Report Required By Railroad Retirement Act of 1974 and Railroad Retirement
Solvency Act of 1983,” issued as of June 2011.
                                                             5
Financial Accounting System Compliance

The Bureau of Fiscal Operations (BFO) relies on two major applications to support its primary
financial responsibilities. The Federal Financial System (FFS) supports the agency’s budget,
cost accounting, accounts payable, and payroll activities. The Program Accounts Receivable
System (PARS), which originated as a module within FFS, supports the agency’s accounts
receivable function.

The developer of the FFS discontinued its maintenance and technical support for the system in
2000 and the FFS’ Federal certification and accreditation status expired in 2003. The FFS is
also dependent on its system administrator and several experienced users that are eligible to
retire. BFO contracted with a systems consultant to identify and evaluate replacement
alternatives for the FFS.

In its report, the consultant stated that the FFS is no longer compliant with the Federal
Systems Integration Office’s (FSIO) standards. However, the FFS assessment and
alternatives analysis did not address whether BFO’s second major application, PARS, is in
compliance or at risk for obsolescence.

During FY 2000, the OIG reported that the RRB’s financial accounting control structure is not
comprehensive with respect to the reconciliation of the general ledger to its non-integrated
systems. The agency has inventoried these non-integrated systems that support financial
accounting, but its efforts to address the reported deficiency to date have relied on
independent manual reconciliations. It’s unclear whether an FFS replacement system will
allow for an automated and integrated general ledger solution.

Maintaining non-integrated systems by way of manual reconciliations is a step backward in the
effort to enhance productivity and increase efficiency. A cross functional effort and incremental
cost approach is needed that considers the input of all concerned bureaus, offices and users.

There also is no certainty that the necessary funding can be obtained to replace the FFS. A
proposed replacement system to be operated by an external shared service provider and the
ensuing system migration is projected to cost $11.2 million. However, the agency has
requested only $5.0 million in funding.

Prior to new system implementation, RRB management should evaluate the longevity of the
PARS module, as well as, determine whether the proposed FFS replacement system would
provide options for eliminating the need for manual reconciliations of the agency’s
non-integrated systems with the general ledger. Such a solution should include the input of
the agency’s current and prospective users to maximize the capabilities and efficiencies of the
new system. RRB management should also ensure that adequate funding for the project is
available prior to commitment.




                                               6
Business Systems Modernization

The overall decline in the number of RRB employees that service its customers and the
likelihood of declining financial resources will require an increase in the efficiency of the
agency’s operations. The RRB has established an electronic imaging and records system
which has eliminated much of its paper-based processing, but manual processes still remain
which can be potentially automated to increase efficiency and reduce cost.

Electronic records and paperless processing allow multiple users to access and work with the
same data simultaneously. In addition, RRB customers can access electronic data and
records online to answer self-inquiries without contacting the RRB’s field service. Electronic
records also support data analytics initiatives that can address fraud within the benefit payment
environment.

The Office of Programs stated that operational efficiency can be further enhanced through
automation of the RRB’s disability program. As such, a migration to paperless disability
program processing has been identified as a future automation goal. An electronic method of
processing disability claims would also provide a means for real-time detection and prevention
of disability fraud and enable the use of data mining techniques that will assist auditors and
investigators. However, the necessary funding for this initiative has not been requested.

The RRB maintains a network of over 50 field offices throughout the country. Communication
improvements between the field offices have been made in recent years through the use of an
national toll-free telephone service which provides automated call routing, but the service does
not have the capability to function as an integrated call center that could streamline program
functions, complete routine benefit processes, and allow advanced customer inquiries to be
developed to a point where they could be quickly resolved.

The current call routing service was not designed to maximize customer response coverage, or
to further minimize the number of field offices and representatives needed to maintain efficient
operations and promote quality customer service. With 247 of 894 (28%) of its staff employed
by the RRB’s field service, an integrated call center which enables automated customer
responses would provide a logical option when considering ways to minimize cost and operate
more productively. However, an assessment has not been performed to identify specific
program functions and tasks that could be automated and performed by an integrated call
center.

The potential efficiencies that can be obtained from an integrated call center in collaboration
with the agency’s telework policy have also not been assessed.6 The establishment of
home-based telework offices and/or shared locations with other Federal agencies would help
to reduce the agency’s office rental expense.




6
 OPM defines telework as work arrangements in which an employee regularly performs officially assigned duties at home or
other work sites geographically convenient to the residence of the employee.
                                                            7
Information Technology

The Federal Chief Information Officer (CIO) has issued two documents that describe the major
information technology (IT) initiatives to be undertaken within the Federal government over the
next several years. Both documents were issued in connection with the Federal Data Center
Consolidation Initiative (FDCCI) which focuses on the consolidation of the fragmented data
center environment existing across government.7

The first document, the “25 Point Implementation Plan to Reform Federal Information
Technology Management” (Implementation Plan), issued on December 9, 2010, prescribes an
overall framework for leveraging IT investments and prescribes the method for scaling down
the number of data centers existing across government by 800 by the end of 2015. The
Implementation Plan also establishes a “Cloud First” policy which directs agencies to consider
cloud computing applications when introducing new IT services and requires each agency to
identify three services that can be moved to the cloud within 18 months of the plan’s inception.

The second document, the “Federal Cloud Computing Strategy” (Cloud Strategy), issued on
February 8, 2011, provides a decision framework for cloud migration and offers guidance on
the types of cloud services available. Within the Cloud Strategy, the National Institute of
Standards and Technology defines cloud computing as a “model for enabling convenient,
on-demand network access to a shared pool of configurable computing resources
(e.g., networks, servers, storage, applications, and services) that can be rapidly provisioned
and released with minimal management effort or service provider interaction.”

The RRB’s Bureau of Information Services (BIS) has thoroughly assessed the requirements of
the Implementation Plan and Cloud Strategy and has concluded that the primary focus of the
current guidance is on large scale IT users. The RRB has identified several small IT projects
that it believes will satisfy the plan’s immediate requirements, but is awaiting further
government-wide guidance from the Federal CIO that will address smaller agencies before it
plans a major shift toward IT cloud-based services. As BIS’s efforts to date have been
compliance based, major cost savings initiatives have not yet been developed.

The Office of Programs has proactively participated in cloud computing discussions and
related brainstorming sessions with benefit payment officials from the Social Security
Administration and the Veteran’s Administration but has not yet established formal initiatives
that would serve to educate potential users on the available platforms, identify cloud
opportunities which cross functional lines, assess facility sharing options and scales of
investment, and compute the potential IT savings for the agency.

To yield maximum benefit from the Federal CIO’s IT initiatives, BIS and Office of Programs
management should conduct a joint IT cost/benefit and risk analysis that will support their
prospective technology investment decisions and ensure that the agency’s efforts are in
compliance with applicable Federal and agency requirements and information security
standards.



7
 The focus of the Federal Data Center Consolidation Initiative is to leverage the best practices of the public and private sector;
promote the use of Green IT and reduce the overall energy and real estate footprint of government data centers; reduce the
cost of data center hardware, software and operations; increase government IT security; and shift IT investments to more
efficient computing platforms and technologies.
                                                                8
Human Capital Management

Demographically, the RRB has a very mature workforce with a significant number of its
employees becoming eligible to retire in the near future. The most recent projections indicate
that over the next five years approximately 50% of the agency’s employees will become
eligible for retirement. In the Bureau of Information Services, the percentage of employees
eligible for retirement will approach 70% by the end of FY 2016. Recent recoveries in the
value of Thrift Savings Plan retirement accounts may encourage more of these eligible
employees to retire. These attrition-based workforce changes will impact every facet of the
agency’s operations including senior level management.

The competition for skilled labor within the Federal government may further complicate the
agency’s mission if there is a rebound in private sector employment. Federal wage freezes
and proposals to increase the employees’ share of benefit contributions have tarnished the
attractiveness of a Federal career and will likely increase the difficulty of finding qualified
replacements for experienced agency workers.

The RRB has identified staff attrition as an ongoing concern and has developed internal and
external sources for recruitment. The current high levels of unemployment have resulted in an
unusually large volume of applicants for many of the recent job postings. However, this
surplus of potential recruits may not continue indefinitely and critical positions may become
more difficult to fill as more Federal workers opt for retirement.

The RRB’s Human Capital Management Plan and Succession Management Plan could be
employed to address rapid staff turnover; however, the plan is presently unfunded which
creates a risk for the agency. The RRB’s plan recognizes the agency’s need to maintain and
replace agency staff. However, the plan does not consider the impact of a scaled decline in
financial resources or other budgetary risk scenarios.

The RRB has not established a long-term service delivery plan that can efficiently respond to
its declining customer base. The GAO recommended the establishment of a similar plan for
the Social Security Administration (SSA).8 In its 2009 report, GAO recommended that, “SSA
develop a service delivery plan that describes how it will deliver quality service in the future
while managing growing work demands and constrained resources. Further, this plan should
establish standards for field office waiting times and phone service to help identify and improve
offices with poor service.” GAO also recommended that, “SSA make clear to what extent
additional resources or an altered field office structure might be needed to accommodate the
growing workload.” An analysis of the RRB’s future customer service workload and the
dynamic level of full time equivalents that are needed to support an optimal level of customer
service for the railroad community within the agency’s budgetary limits have not been
performed.

RRB management should supplement its Human Capital Management Plan and Succession
Management Plan by assessing the likelihood of both a reduction in staffing and financial
resources, establish reliable staffing contingencies, and estimate the funding necessary for
plan readiness. In conjunction, a service benefit plan should be prepared that will maximize
the workload efficiency of the agency’s field service function.


8
    GAO Report No. 09-24, January 2009, “Service Delivery Plan Needed to Address Baby Boom Retirement Challenges.”
                                                            9
Railroad Medicare

The RRB has responsibility for the administration of Railroad Medicare benefits for qualifying
beneficiaries and their eligible dependents. The RRB is responsible for Medicare enrollment,
premium collection and for monitoring the contractor who provides nationwide coverage for the
railroad beneficiaries.

The GAO continues to cite Medicare as a high risk area because of its size, complexity and
vulnerability to mismanagement and improper payments. GAO estimated that nearly
$48 billion in improper payments had been paid by Medicare in FY 2010. This represented
more than 9% of the total Medicare benefits paid during the reported year. The Railroad
Medicare program is not immune to the types of fraud, waste and abuse found in the Medicare
program.

The RRB has recently announced that in addition to its Part B responsibilities, the agency will
be responsible for withholding and collecting premiums for Railroad Medicare Part C and
Part D. These additional Medicare responsibilities will require further coordination between the
Centers for Medicare & Medicaid Services and the RRB to affect the appropriate transfer of
funds between the agencies.

The agency’s Railroad Medicare Section has experienced significant workload increases
through the third quarter of FY 2011. While production has improved from the prior year,
mounting backlogs, attributed to staffing attrition and new-hire training; variable rate
processing errors; and a surge in refund cases, continue to be a concern for the section’s
maintenance and premium collection functions. The imminent establishment of a new Railroad
Medicare contract and with updated provisions and requirements will also create an
environment of uncertainty for at least the short term.

Since 2007, the OIG has released three audit reports which indicate that controls over Railroad
Medicare benefit integrity, improper payments to providers, and contract cost management can
be strengthened.9 Additionally, the Centers for Medicare & Medicaid Services has endorsed
predictive analysis and high risk payment screening as tools for combating fraud and abuse in
the Medicare environment.

RRB management must ensure that the Railroad Medicare program and its contractor readily
adopt these proactive tools and techniques that will provide an alternative to the historical “pay
and chase” methodology.




9
 OIG Report No. 09-04, issued September 25, 2009, “Audit of the Railroad Medicare Integrity Program at Palmetto
Government Benefits Administrators;” OIG Report No. 10-13, issued September 30, 2010, “Railroad Medicare Services Billed
with Dates of Service after the Beneficiaries' Dates of Death;” OIG Report No. 11-06, issued April 20, 2011, “Audit of Controls
Over Railroad Medicare Contract Costs.”
                                                              10
Energy Conservation and Space Utilization

The RRB’s FY 2011 Strategic Sustainability Performance Plan for the Railroad Retirement
Board concluded that the agency is becoming more energy efficient through process
automation and electronic reporting. The RRB has also incurred energy savings through
lighting improvements and other green enhancements.

While the agency closed 33 field offices since 1995, a headquarters space utilization study has
not been performed which addresses long-term staffing, space and location optimization, and
the impact of government-wide telework policy. Upfront renovation costs of approximately
$300,000 per floor are also a significant deterrent to headquarters space reduction.

The General Services Administration’s ownership and control of the building mandates their
approval before the RRB can install major energy saving features and building fixture
enhancements. The RRB’s scale of operations as compared with larger Federal agencies
further limits its ability to implement significant energy cost savings and space reduction
initiatives.

RRB management should conduct a space utilization study and assess whether further
downsizing, field office reductions, and expanded telework usage can achieve greater
efficiency and energy conservation.




                                              11
                                       CONCLUSION
The RRB must respond to new federal technology directives while concurrently facing the
possibility of staffing deficiencies and the likelihood of budgetary reductions. The agency has
made significant progress in some areas, however, program efficiency can be improved and
cost savings initiatives have not been fully utilized. Business efficiency weaknesses have
been identified in the following areas:

1. Increasing program costs and under-funded mandates are further complicated by
   economic and budgetary uncertainty.

2. Agency productivity has declined relative to program funding and the railroad customer
   base.

3. Rising NRRIT administrative costs have increased the RRB’s overall cost structure by
   more than 70% while retirement benefits appear unsustainable in future years.

4. The proposed financial accounting replacement system does not address non-integrated
   system weaknesses and is critically under-funded.

5. A source of funding is needed for the agency’s electronic disability record processing
   initiative.

6. Call center integration and automation have not been utilized to streamline program
   functions, minimize operational expense, and improve customer service.

7. A collaborative, agency-wide cloud computing initiative that will assess IT costs, benefits
   and relative risk has not yet been established.

8. Rising attrition levels are forecast while the agency’s management succession plan lacks a
   funding source and an adaptive long-term service benefit plan has not been established.

9. Ineffective contract oversight threatens the integrity of the Railroad Medicare program as
   the agency’s program workload and responsibilities continue to increase.

10. A headquarters space utilization study addressing long-term staffing and the impact of
    telework policy is needed.

We propose that the Board and RRB management identify the available options that will
counter these business efficiency weaknesses and initiate appropriate corrective actions.




                                               12
                                                                      Appendix 1


                      Special Reports Issued By the OIG



                                                              Release Date

Railroad Medicare Fraud Detection Contracts: Lessons
                                                                04/07/11
Learned

Contingency Plan During a Lapse in Appropriations               04/07/11

Retirement Experience of the Employees of the Long Island
                                                                11/24/08
Railroad Under the Railroad Retirement Act

Statement of Concern - NRRIT Lack of Provision for
                                                                03/31/08
Performance Audits

Strategic Initiatives Related to the President’s Management
                                                                03/31/03
Agenda

Examining the Inefficiencies of the Federal Workplace -
                                                                07/2002
Recommendations for Reform

Examining the Inefficiencies of the Federal Workplace -
                                                                09/26/01
Recommendations for Reform

Reinvention Proposals Reinvention 2001                          05/25/01

Reinvention Proposals Phase IV                                  09/27/96

Reinvention Proposals Phase III                                 09/27/96

Reinvention Proposals Phase II                                  09/26/95

Reinvention Proposals Phase I                                   01/24/95




                                        13
                                                                                  Appendix 2


NRRIT Tax Rate, Benefits Ratio and Fund Balance Projections

                                 Tier 2 Tax Rate Projections
     30%


     25%


     20%


     15%
                  2011       2015       2020        2025       2030        2035

                                Optimistic Employment Assumption
                                Moderate Employment Assumption
                                Pessimistic Employment Assumption



                         Account Benefits Ratio (ABR) Projections
     6.00
     5.00
     4.00
     3.00
     2.00
     1.00
     0.00
     -1.00        2011        2015       2020       2025         2030      2035

                                Optimistic Employment Assumption
                                Moderate Employment Assumption
                                Pessimistic Employment Assumption



                   NRRIT Trust Fund Balance Projections (In Millions)
     $40,000

     $30,000

     $20,000

     $10,000

             $0
                     2011       2015       2020       2025          2030   2035
     -$10,000

                                Optimistic Employment Assumption
                                Moderate Employment Assumption
                                Pessimistic Employment Assumption




                                            14
